No. ____________________________
_________________________

IN THE
SUPREME COURT OF THE UNITED STATES
_________________________

ASHLEY FERNANDES,
PETITIONER
vs.
COMMONWEALTH OF MASSACHUSETTS,
RESPONDENT

_____________________________

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT
Leslie W. O’Brien
Post Office Box 31
Pinehurst, MA 01866
781-756-0111
B.B.O. #542413
leslieobrien@comcast.net
Counsel of Record
for the Petitioner

ii
QUESTION PRESENTED
May a search warrant authorize an unlimited search of all of a
suspect’s digital devices based on an affidavit describing the type of crime
being investigated but omitting any cause to believe that evidence of the
crime may be found on the devices?

LIST OF PARTIES
The parties below are listed in the caption.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
INDEX TO APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vi
STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vi
CONSTITUTIONAL PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vi
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . . 8
I. The Massachusetts court’s holding that a search warrant
may authorize an unlimited search of all of a suspect’s digital
devices based on an affidavit describing the type of crime being
investigated but omitting any cause to believe that evidence of
the crime may be found on the devices has broad implications. . . . . 8
II. The highest state courts in at least three states have held that,
to satisfy the need for probable cause, an application for a
warrant to search a suspect’s digital devices must specify, to the
degree practicable, what type of evidence relevant to the crime
under investigation is being sought. . . . . . . . . . . . . . . . . . . . . . . . . . 10
III. The Massachusetts court’s decision disregards the Fourth
Amendment’s prohibition against general warrants as well as
this Court’s decisions reaffirming that prohibition. . . . . . . . . . . . . . 15
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

iv

INDEX TO APPENDICES

Appendix A -

Decision of the Massachusetts Supreme Judicial Court
affirming the convictions.

v
TABLE OF AUTHORITIES
Cases
Commonwealth v. Fernandes, 485 Mass. 172,
148 N.E.3d 361 (2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 7-9
Coolidge v. New Hampshire, 403 U.S. 443 (1971) . . . . . . . . . . . . . . . . . . . 15
Groh v. Ramirez, 540 U.S. 551 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Riley v. California, 573 U.S. 373 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . 11
State v. Castagnola, 145 Ohio St.3d 1,
46 N.E.3d 638 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .13-15
State v. Mansor, 383 Or. 185, 421 P.3d 323 (2018) . . . . . . . . . . . . . . . 10-11
Wheeler v. State, 135 A.3d 282 (Del. 2016) . . . . . . . . . . . . . . . . . . . . . 12-13

Constitutional Provisions
Fourth Amendment, United States Constitution . . . . . . . . . . . . . . . . . passim
Article I, § 9, Oregon Constitution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Article I, § 6, Delaware Constitution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

vi

OPINIONS BELOW
The decision of the Massachusetts Supreme Judicial Court affirming
the conviction appears at Appendix A to the petition and is published as
Commonwealth v. Fernandes, 485 Mass. 172, 148 N.E.3d 361 (2020).

STATEMENT OF JURISDICTION
The date of the opinion and judgment of the First Circuit Court of
Appeals of which review is sought is July 6, 2020. This petition is filed
within 150 days of that date. The jurisdiction of this Court is invoked under 28
U.S.C. §1257.

CONSTITUTIONAL PROVISION INVOLVED
The Fourth Amendment to the United States Constitution provides:
The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be violated, and
no Warrants shall issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.

1
STATEMENT OF THE CASE
To date, the Massachusetts Supreme Judicial Court stands alone among the
state courts in holding that a search warrant authorizing an unlimited search of a
suspect’s digital devices is valid if the type of crime under investigation is
described in the warrant even if there has been no showing, and no effort to show,
that the devices may contain evidence of the described crime.
The history of this case is as follows:
On May 23, 2008, Ashley Fernandes was indicted for the April 5, 2008,
murder of his live-in girlfriend, Jessica Herrera. On the same date, he was indicted
for assault and battery and assault with intent to murder Ms. Herrera in December
of 2007.
On the day of Fernandes’s arrest, during a consent search of his home, police
discovered the body of Ms. Herrera. Following the arrest, they applied for a
warrant to search the home. The detective who applied for the warrant sought
authorization for the seizure of the body of Jessica Herrera as well as physical
evidence. Also sought and authorized by the warrant was a search for and seizure
of “DVD/VCR tapes, recording devices, cameras and cellular phones (with
chargers).” No reason was suggested in the application for the warrant or in the

2
warrant itself to suspect that this last group of items might contain evidence
relevant to the death of Ms. Herrera.1
During the search of Fernandes’s home, police seized a digital camera, two
cell phones, and a computer. While the search was ongoing, a detective found a
digital camera in a drawer and gave it to Trooper James Crump. Crump took the
camera, turned on the power and hit “playback.” The first photograph that
appeared on the camera showed Jessica Herrera lying dead on the floor of the
home’s living room. The trooper then pressed the “back” button on the camera
several times and saw additional photographs showing Ms. Herrera’s upper body.
Two of the photographs show the defendant’s hand at Ms. Herrera’s neck.
After this discovery, on the next day, Trooper Brian D. O’Neill sought a
second search warrant, which authorized the forensic examination - without
restriction - of Fernandes’s two cell phones, camera, and computer. Plainly
recognizing that the application for the first warrant failed to establish probable
cause for the search of the camera that had already taken place, Trooper O’Neill
added the claim to this second application that it was “not unusual” for killers to
photograph their victim’s deaths. He did not mention that the camera had already
been searched.

1

It has been assumed throughout the litigation in this case that the applications for the search
warrants, including the affidavits of the officers, were incorporated into the warrants. See, e.g.,
Commonwealth v. Fernandes, 485 Mass. 172, 184, 148 N.E. 3d 361, 373 (2020).

3
The vast extent of the permissions requested and granted by magistrate in
the second warrant are important to this petition and so are reproduced here.
Following his claim that it is that it was “not unusual” for killers to
photograph their victim’s deaths, Trooper O’Neill stated the following in the
application for the second warrant:
“22. ... During the initial search and the subsequent search of the
search warrant [sic] executing officers observed a digital camera and a
home computer. The discovery of the digital camera at that location
indicates the need for the use of a computer with which to manage,
download and manipulate images, said computer presumably being
the only one located on the premises at 7 Oak St., Peabody, Apt. #9.
In consultation with Sergeant Thomas Neff of the Essex County
Computer Facilitated Crime Unit (CFCU), [Footnote 1: Sergeant Neff
is a twenty-nine year veteran of the Massachusetts State Police and is
currently assigned the Essex County District Attorney's Office
Computer Facilitated Crime Unit. He has extensive experience in
computer crime investigation and the forensic examination of digital
data.] I also know that computers, digital cameras and other digital
data are used by many to record things and events typically (before
the advent of digital technology) relegated to paper; that is, digital
data generally - and computers in particular - are, in a sense,
electronic filing cabinets. In short, much of a person's personal and
professional information is found on the home computer. Sgt. Neff
further advises that the convenience afforded by the use of a digital
camera, in addition to the anonymity provided to the user of a digital
camera, [Footnote 2: In the age of digital still and movie cameras. the
elimination of the need for third party film developers (as in the past),
has afforded users the ability to photograph illegal images with no
fear of exposure] creates a greater likelihood that perpetrators will
record such information particularly given the ease with which they
believe such images can be destroyed or deleted. [Footnote 3: Images
deleted by a user from a digital camera or from a computer are often
easily recovered by a forensic examination. The data is not typically
physically removed; rather, after deletion, computers and other digital
devices merely relegate such files to ‘free space’ merely making that

4
space eligible for overwriting by new files.] I believe there is probable
cause to believe that the materials set forth below (which may exist in
tangible form, paper form or in electronic medium on any computer
disk and/or computer system) which relate to or have a connection to
any item listed below in Items (A) and (B), including but not limited
to any document, notes, statements, records, files, correspondence,
bill, invoice, forms, logs, books, reports, will be found at the home of
Ashley Fernandes located at 7 Oak Street apartment 9 Peabody, Ma. I
request permission to search for and SEIZE the following
at 7 Oak Street apartment 9 Peabody, Ma: computers, digital cameras,
cell phones, digital storage devices and media (disks, tapes, thumb
drives) and any and all software and hardware related to computers
and other digital devices.
“22. In the case of the digital data--more specifically, two cellular
phones, a digital camera and a computer--I respectfully request
permission to submit the same to the Essex County CFCU for a
forensic examination by Sgt. Neff, Trooper Michael Murphy, or Mr.
Richard Falanga, all of whom have extensive training and experience
in the forensic examination of all such digital evidence. Said forensic
examination will be to search for the above outlined data (graphic
evidence of the crime under investigation) and any information
linking the defendant to the victim, either through digital
photography, digital documentation, e-mail, Internet and chat activity,
cellular phone history and cellular phone text messaging. [Footnote 4:
Friends and acquaintances in the ‘digital age’ communicate frequently
using the Internet, or using ‘chat’ rooms or chat software, which
allows for dynamic, spontaneous conversation between users. Often,
transcripts or partial transcripts of these chats are archived on or
remain on the computer, depending on the
chat software used and the preferences set by usen of that software.]”
The reference in paragraph 21 to “Items (A) and (B)” is to the following:
“[a.] (1) All objects capable of storing digital data in any form,
including but not limited to central processing units
("CPUs"), optical scanners, digital cameras, modems,
routers, memory sticks, thumb or USB drivers, firewalls,
tapes, zip drive disks, digital video dis.ks ("DVDs"), and
computerized printers (which objects, as a whole, shall be

5
referred to herein as the ‘Computer System’).
(2) All of the Computer System's documentation, including but
not limited to:
(a) Operating System and Application programming
disks, software, hardware, CD-ROMs, etcetera;
(b) Manuals, books, or brochures pertaining to computer
programs and/or applications;
(c) Manuals, books, or brochures pertaining to an
Internet Service Provider(s).
(3) Computer access codes, passwords _and/or protocols.
(4) All evidence of ownership of, access to, and/or control over
the Computer System.
b. And to transport the Computer System to a secure location and, there, to
EXAMINE said Computer System for the following evidence:
(1) All of the Computer System's documentation, including but
not limited to:
(a) Operating System and Application programming
disks, software, hardware, CD-ROMs, etcetera; 0
(b) Manuals, books, or brochures pertaining to computer
computer/programs and/or applications;
(c) Manuals, books, or brochures pertaining to an
Internet Service Provider(s).
(2) Computer access codes, passwords and/or protocols.
(3) All evidence of ownership of, access to, and/or control over
the Computer System.”
On December 15, 2008, the defendant filed his first motion to suppress
evidence. The motion asked the court to suppress, among other items, the evidence
found as the result of searches of Fernandes’s electronic devices since “there was
no probable cause to believe that evidence of the crime of homicide would be
found stored on any of the electronic devices the police seized and searched.”
On February 22, 2011, the motion judge issued his memorandum and
decision denying both this first motion to suppress and a second motion filed by

6
successor counsel.2 The motion judge noted the deference due to the magistrate’s
determination of probable cause and cited Trooper O’Neill’s claim that he and
other experienced officers knew it to be “not unusual” for the deaths of homicide
victim’s to be memorialized by audio or video means. The judge added a rationale
for the search of Fernandes’s digital devices that was not included in either of the
applications for the warrants. The rationale was that
“[i]n today’s age, computers, cameras, and cell phones often contain
reflections of one’s relationships with other persons. That is especially
so with respect to family members and romantic partners.”
Fernandes stood trial in September of 2012. The only evidence the
prosecutor introduced at trial resulting from the seizure and search of Fernandes’s
digital devices was the photographs discovered in the digital camera during the
first warranted search.
The prosecutor used the photographs to counter the defendant’s claim that
the homicide was manslaughter based on reasonable provocation. The prosecutor
argued in her opening statement and in summation that the photographs
demonstrated that Fernandes took pleasure in killing Ms. Herrera. Fernandes was
convicted of first-degree murder on the theories of premeditation and extreme
atrocity as well as assault and battery.

2

Later, represented by new counsel, the defendant filed a second motion to suppress the fruits of
the search based in part on the failure of the assistant clerk magistrate who examined the
warrants, applications, and affidavits to sign the warrant. A.162-63.

7
On appeal to the Massachusetts Supreme Judicial Court, Fernandes argued
that nothing in the first warrant permitted the seizure and search of his camera and
nothing in the second warrant remedied the lack of probable cause for the search.
The court affirmed Fernandes’s convictions on July 6, 2020. Commonwealth v.
Fernandes, 485 Mass. 172, 148 N.E.3d 361 (2020). Regarding the search of the
camera, the court disregarded the trooper’s claim in support of the second warrant
that it is “not unusual” for killers to photograph their crimes. Id. at 184 n.9, 148
N.E.3d at 373 n.9. However, the court found that, because the “type of crime” (the
homicide of a domestic partner) was described in the applications for the warrants,
it could be “reasonably inferred” by the magistrate that the camera found in the
home Fernandes and Herrera shared “would contain evidence relevant to the nature
of their relationship, the defendant’s motive for the killing, and possibly the killing
itself.” Id. at 183-185, 148 N.E.3d at 373-374.
The Massachusetts court did not comment on the fact that the application for
the second warrant did not suggest this second rationale for the search of the
camera. Nor did the court elaborate on how one might memorialize the negative
aspects of a domestic relationship in photographs.

8
Fernandes’s motion for reconsideration or modification3 of the decision was
denied on July 27, 2020.
REASONS FOR GRANTING THE WRIT
I. The Massachusetts court’s holding that a search warrant may
authorize an unlimited search of all of a suspect’s digital devices
based on an affidavit describing the type of crime being investigated
but omitting any cause to believe that evidence of the crime may be
found on the devices has broad implications.
The Massachusetts court’s decision holds that, to establish probable cause to
search an accused’s digital devices seized during a search of his home, the affidavit
in support of the warrant need only allege violence between domestic partners or
family members living in the home. Id. Although the decision addresses
specifically the photographs found in a digital camera, its reasoning applies equally
to all the digital devices the warrant authorized police to search.
As stated, the Massachusetts court reasoned that it was inferable from the
warrant application that photographs found in a digital camera could be relevant
because they may “explain[] the nature of the relationship between the defendant
and the victim.” Id. at 184, 148 N.E. 3d at184. By this same reasoning - simply by
virtue of having listed them in the warrant applications - the police in this case
3

Fernandes asked for modification because the Massachusetts court stated in its decision that
Fernandes argued at oral argument that first warrant was sufficient to authorize the seizure of the
cameral but additional authorization was required for the search. Id. at 185-186. 148 N.E.3d at
374. Fernandes has always argued that neither the initial seizure nor the search of the cameral
was supported by a showing of probable cause. See oral argument,
https://boston.suffolk.edu/sjc/archive.php.

9
were authorized to seize and examine, without limitation, any “DVD/VCR tapes,
recording devices, cameras and cellular phones” (first warrant) and any “computers
... digital storage devices and media (disks, tapes and thumb drives) and any and all
software and hardware related to computers and other digital devices” (second
warrant) found in the home. All of these items could contain photographs, which
would be admissible under the Massachusetts court’s ruling. In addition, some
would contain email messages, text messages, personal contacts, financial records,
and even more private information that could all be lawfully examined on the
theory that such information could conceivably shed light on a family relationship.
The implications of the decision are wide-ranging and not limited to crimes
involving violence in the home. The decision implicitly reasons that, if police
describe in the warrant application the type of crime being investigated, as long as
a magistrate could imagine that evidence of such a crime might be found on a
suspect’s digital devices police need not state in a warrant application what they
are looking for in the devices and why they believe such evidence might be found
there. Stated plainly, the decision eliminates the need for a showing of probable
cause.

10
II. The highest state courts in at least three states have held that, to
satisfy the need for probable cause, an application for a warrant to
search a suspect’s digital devices must specify, to the degree practicable,
what type of evidence relevant to the crime under investigation is being
sought.
In State v. Mansor, 383 Or. 185, 421 P.3d 323 (2018), Oregon’s high court
considered whether a warrant authorizing the search of suspect’s four computers
was valid. The crime under investigation involved the death of the suspect’s infant
son and the officer applying for the warrant included this fact in his application. Id.
at 190, 421 P.3d at 327. The officer also included Mansor’s statement to police that
he had conducted an internet search when he noticed that the child had alarming
symptoms. Id.
The court considered Mansor’s challenge to the warrant under Article I, § 9
of the Oregon Constitution, the wording of which is nearly identical to the Fourth
Amendment. Id. at 201-206, 421 P.3d at 336. The article states, in part, that “no
warrant shall issue but on probable cause, supported by oath or affirmation,
particularly describing the place to be searched, and the persons or things to be
seized.” Id.
The Oregon court concluded that the application for the warrant supported a
search of Mansor’s computers limited to the internet search he admitted conducting
on the date of the child’s death. Id. at 220, 421 P.3d at 344. However, the state’s
forensic examiner had conducted an extensive examination of the computers that

11
included examination of Mansor’s internet activity over a period of years. Id. at
192, 421 P.3d at 329. The court held that, because the warrant was valid only as to
the search for activity on the date of the child’s death, all other evidence
discovered as a result of the search should have been suppressed. Id. at 219-220,
421 P.3d at 343-344.
As in this case, the State argued that the fact that the nature of the crime
under investigation was included in the officer’s affidavit provided a basis for the
issuing judge to find probable cause for the extensive search. Id. at 212-213, 421
P.3d at 340. The court rejected this argument, stating that its precedent was
“not a blanket endorsement of nonspecific terms in search warrants
and provide[s] no support for the state’s proposed rule that merely
identifying the crime under investigation provides sufficient
particularity to search the entire contents of a lawfully seized
computer.”
Id. at 213-214, 421 P.3d at 340.
The Mansor court discussed Riley v. California, 573 U.S. 373 (2014), where
this Court held that the search incident to arrest exception to the warrant
requirement did not justify the search of all data on a cell phone that was lawfully
seized at the time of a suspect’s arrest. Specifically, the Oregon court noted the
Court’s discussion in Riley regarding the “immense storage capacity” of a cell
phone as opposed to the limited information in, for instance, a wallet that might be
seized during arrest. Mansor, 363 Or. at 201-202, 421 P.3d at 334.

12
The Oregon court also cited a decision by the Delaware Supreme Court,
Wheeler v. State, 135 A.3d 282 (Del. 2016). There, the court considered the
validity of warrants that, like the warrants in this case, “covered [the defendant’s]
entire digital universe and essentially had no limitations.” Id. at 284, 287. The
Delaware court agreed with Wheeler that these were “general warrants” and
therefore violated the Fourth Amendment to the United States Constitution and
Article I, § 6 of the Delaware Constitution. Id. at 294, 298, 305-305.
In Wheeler, officers were purportedly investigating allegations of witness
tampering. The conduct that was alleged in the search warrant affidavit to be
tampering took place in July of 2013. Id. at 287. However, the warrant that issued
authorized the seizure and unrestricted search of, among other items, all
computers, digital media, cell phones, digital cameras and other digital devices and
means of storage. Id. at 289. During the search of Wheeler’ s computer, an
investigator opened an image file that appeared to contain child pornography. Id. at
291. Based on this discovery, officers obtained a separate warrant to search the
seized devices for child pornography. Id.
As stated, the Delaware court held that the initial warrant violated both the
Fourth Amendment and Article I, § 6 of the Delaware Constitution in that it was
both overbroad and lacking in particularity. Id. at 298, 304. The court further held
that, although it would be unworkable to prescribe hyper-technical rules for

13
warrants to search digital devices, applications for such warrants must describe
what is being seized and searched for “with as much particularity as the
circumstances reasonably allow” to avoid offending the constitutional protections
against unreasonable searches and seizures. Id. at 305. Because the warrants
involved lacked such particularity, the Wheeler court reversed the lower court’s
decision denying Wheeler’s motion to suppress evidence. Id. at 285, 307.
The rule articulated in Wheeler is not unduly burdensome. In this case, for
example, the applicants for the warrant might have specified that they wanted to
search the digital devices for communications between the defendant and the
deceased during a specific period of time. Such a request may have rendered a
search for such communications lawful. The search of the camera, however, would
still have been unlawful absent some separate justification.
In State v. Castagnola, 145 Ohio St.3d 1, 46 N.E.3d 638 (2015), the Ohio
Supreme Court considered the legality of a warrant to search the defendant’s
computers. The application for the warrant specified that the crimes under
investigation were “retaliation, criminal trespassing, criminal damaging, and
possession of criminal tools.” Id. at 2, N.E.3d at 643. The application sought
authority to search, in addition to other items on Castagnolas’s premises, his
computers, cell phones, hard drives, and other electronic storage devices. The
affidavit in support of the warrant quoted text messages provided by a police

14
source in which Castagnola bragged about finding information about a
prosecutor’s home and damaging the prosecutor’s property. Id. at 2-3, 46 N.E.3d at
643-644.
Following issuance of the warrant, a forensic specialist examined the
computers. In doing so, she found evidence of child pornography. Id. at 3-4, 46
N.E.3d at 644-645. Police obtained a second warrant to search for more evidence
of the same. Id. at 4, 46 N.E.3d at 645.
Pertinently to this case, the Ohio court considered whether the application
for the first warrant was lacking in particularity in that it failed to specify what
evidence police were looking for on the computers and why they thought it might
be found there. Id. at 19, 46 N.E.3d at 657. The Ohio court found that the warrant
placed no limitations on the types of records or documents that police could
examine in their search of the computers. Id. at 19-20, 46 N.E.3d at 657-658.
Specifically, the court found that the fact that the type of crime being investigated
in was included the warrant application was insufficient to limit the search, and in
fact permitted the examiner to view “every record or document” on the computer
in question. Id. at 20, 46 N.E.3d at 658. The court therefore held that the warrant
failed to comply with the requirements of the Fourth Amendment. Id. at 659. The
Castagnola court recognized that the Fourth Amendment does not require a search
warrant to apply restrictive search protocols in relation to computers, but, at the

15
same time, “does prohibit ‘a sweeping comprehensive search of a computer’s hard
drive.’” Id. at 21, 46 N.E.3d at 659, citing and quoting from United States v.
Walser, 275 F.3d 981, 986 (10th Cir.2001).
III. The Massachusetts court’s decision disregards the Fourth
Amendment’s prohibition against general warrants as well as this
Court’s decisions reaffirming that prohibition.
This Court has famously stated that the Fourth Amendment’s particularity
requirement is intended to address a specific evil. “[T]he specific evil is the
‘general warrant’ abhorred by the colonists, and the problem is not that of intrusion
per se, but of a general, exploratory rummaging in a person's belongings.”
Coolidge v. New Hampshire, 403 U.S. 443, 467 (1971). More recently, and
pertinently to this case, the Court has said that “the presumptive rule against
warrantless searches applies with equal force to searches whose only defect is a
lack of particularity in the warrant.” Groh v. Ramirez, 540 U.S. 551, 559 (2004).
The effect of the Massachusetts high court’s decision in this case is to permit
general rummaging in a suspect’s belongings, such as occurred in this case, based
on nothing more than a description of the crime being investigated. The decision
should not stand.
CONCLUSION
For the reasons stated, the petition for certiorari should be granted.

16

Respectfully submitted,
ASHLEY FERNANDES
By his attorney,

/s/Leslie W. O’Brien
Attorney for the Petitioner
Post Office Box 31
Pinehurst, MA 01866
781-756-0111
B.B.O. #542413
leslieobrien@comcast.net

